No. 20-366
IN THE

Supreme Court of the United States
DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,

Appellants,

v.

STATE OF NEW YORK, ET AL.,

Appellees.

On Appeal From the United States District Court for the
Southern District of New York
BRIEF OF AMICUS CURIAE MICHAEL L. ROSIN IN
SUPPORT OF APPELLEES
PETER K. STRIS
MICHAEL N. DONOFRIO
Counsel of Record
BRIDGET C. ASAY
ELIZABETH R. BRANNEN
STRIS & MAHER LLP
777 S. Figueroa St., Ste. 3850
Los Angeles, CA 90017
(213) 995-6800
michael.donofrio@strismaher.com
Counsel for Amicus Curiae

TABLE OF CONTENTS
TABLE OF CONTENTS .................................................... i
INTEREST OF AMICUS .................................................. 1
SUMMARY OF ARGUMENT .......................................... 2
ARGUMENT ....................................................................... 4
I.

Congress Intended The Apportionment
Basis To Include All Persons In Each State,
Including Undocumented Persons. ..................... 4
A. The Historical Context: Congress
Began to Grapple with Post-Abolition
Apportionment. ............................................... 5
B. The Thirty-Ninth Congress
Considered—And Rejected—Language
That Would Have Limited The Basis of
Apportionment To Voters or Citizens. ......... 9
1.

Competing Approaches Emerged
Early In The Thirty-Ninth
Congress. .................................................. 9

2. The Joint Committee On
Reconstruction Proposed A
Penalty-Based Approach. ..................... 12
3. The House Approved The Joint
Committee’s Penalty-Based
Approach. ............................................... 15
4. The Senate Rejected The Committee
Proposal, But Laid The
Groundwork For Resolution. ............... 19

-i-

5. The Joint Committee Embraced The
Grimes/Broomall Approach,
Leading To Ratification By
Congress. ................................................ 21
II. The Deliberations Of The Thirty-Ninth
Congress Confirm That The President
Cannot Unilaterally Exclude Illegal Aliens
From The Apportionment Basis. ....................... 24
CONCLUSION .................................................................. 32

- ii -

TABLE OF AUTHORITIES
Page(s)
Federal Cases
Evenwel v. Abbott,
136 S. Ct. 1120 (2016) ....................................... 29
Useche v. Trump,
No. 8:20-cv-02225-PX-PAH-ELH, slip op.
(D. Md. Nov. 6, 2020) (per curiam) ................... 29
Federal Constitutional Provisions
U.S. Const. Amendment XIV, § 2 ...................passim
U.S. Const. Amendment XIII, 13 Stat. 774775 (1865) ............................................................ 5
U.S. Const. Article I, § 2, cl. 3 .......................... 3, 6, 8
State Constitutional Provisions
Ala. Const. of 1865, Article VIII, § 1, 2.................... 5
Ark. Const. of 1864, Article IV, § 2 .......................... 5
N.C. Const. of 1835, amend. I, § 2, 5 ....................... 6
Fla. Const. of 1865, Article VI, § 1, 2 ....................... 5
Ga. Const. of 1865, Article V, § 1 ............................. 5
Ind. Const. of 1851, Article II, § 2, 2 ...................... 16
Kan. Const. of 1859, Article 5, § 1, cl. 2................. 16
- iii -

La. Const. of 1864, Article III, § 14, 3...................... 5
Mich. Const. of 1850, Article VII, § 1, 4 ................ 16
Miss. Const. of 1832, Article III, § 1, 4 .................... 6
Mo. Const. of 1865, Article II, § 18 ........................ 16
Or. Const. of 1857, Article II, § 2, 5 ....................... 16
S.C. Const. of 1865, Article IV, § 6, 6 ...................... 5
Tenn. Const. of 1834, Article IV, § 1, 6 .................... 6
Tex. Const. of 1845, Article III, § 1 .......................... 6
Va. Const. of 1864, Article III, § 1, 7 ................. 6, 16
Legislative Materials
Cong. Globe, 38th Cong., 2nd Sess. (18641865). ................................................................... 8
Cong. Globe, 39th Cong., 1st Sess. (18651867). ..........................................................passim
The Journal of the Joint Committee of
Fifteen on Reconstruction 39th
Congress, 1865-1867 (Benjamin B.
Kendrick ed., Columbia University Press
1914) ...........................................................passim
Published Authorities
Preliminary Report of the Eighth Census
134–135 (Government Printing Office
1862) .................................................................... 6
- iv -

Thomas A. Berry, The New Federal
Analogy: Evenwel v. Abbott and the
History of Congressional Apportionment,
10 New York University Journal of Law
& Liberty 208 (2016) ......................................... 31

-v-

INTEREST OF AMICUS
Amicus curiae Michael L. Rosin is an
independent scholar who has conducted extensive
historical research and analysis about the interstate
apportionment of the United States House of
Representatives and the Electoral College. 1 His
published scholarship includes:
•

A History of Elector Discretion, 41 Northern
Illinois University Law Review ___,
(forthcoming).

•

Did Berkeley County and Jefferson County
Constitutionally Vexit in the 1860s?, 20
Appalachian
Journal
of
Law
___,
(forthcoming).

•

The Three-Fifths Rule and the Presidential
Elections of 1800 and 1824, 15(1) University of
St. Thomas Law Journal 159 (2018).

•

Elbridge Gerry’s Suspicions and the
Presidential Election of 2012, 46(3) PS: Politics
Science and Politics 587 (2013).

•

The Five-Fifths Rule and the Unconstitutional
Presidential Election of 1916, 46(2) Historical
Methods 57 (2013).

1

All parties have filed written consents to the filing of
briefs by amici curiae with the Clerk of the Court. No
party nor party’s counsel authored this brief in whole or
in part, or made a monetary contribution intended to fund
its preparation or submission. No person other than
amicus or his counsel made a monetary contribution to its
preparation or submission.
-1-

Mr. Rosin’s research on the Electoral College also
formed the basis of petition-stage and merits-stage
amicus briefs in Chiafalo et al. v. Washington and
Colorado Department of State v. Baca et al. See Brief of
Amici Curiae Michael L. Rosin et al., Chiafalo et al. v.
Washington, No. 19-465 & Colo. Dept. of State v. Baca et
al., No. 19-518 (Mar. 6, 2020); Brief of Amici Curiae
Michael L. Rosin & David G. Post in Support of Petition
for Certiorari, Chiafalo et al. v. Washington, No. 19-465
& Colo. Dept. of State v. Baca et al., No. 19-518 (Nov. 6,
2019). He also submitted amicus briefs in Chiafalo and
Baca to the Washington Supreme Court and Tenth
Circuit Court of Appeals, respectively.
Drawing on his detailed research on interstate
apportionment, and in particular his careful review of the
deliberations of the Thirty-Ninth Congress, Mr. Rosin
seeks to assist the Court by marshaling key historical
evidence and analysis concerning the proper
interpretation and application of Section 2 of the
Fourteenth Amendment.
SUMMARY OF ARGUMENT
The proceedings of the Thirty-Ninth Congress
make it crystal clear that “Indians not taxed” are the only
group excluded from “the whole number of persons in
each state”—the basis of the interstate apportionment of
the House of Representatives. U.S. Const. amend. XIV, §
2. Any attempt to read “persons” as excluding anyone
other than “Indians not taxed” must be rejected in light
of the historical evidence. This brief explains essential
historical context for the drafting of Section 2 of the
Fourteenth Amendment and responds directly to
incorrect, ahistorical arguments advanced by amici

-2-

Representatives Brooks, Byrne, and Aderholt (“Brooks
Amici”) and the State of Alabama (collectively, “Amici”).
In the wake of the Civil War, lawmakers realized
that, under the Constitution’s existing apportionment
process, see U.S. Const. art. I, § 2, cl. 3, the abolition of
slavery would increase the political power of states
formerly in rebellion whether or not they continued to
disenfranchise persons of color. Congress decided to
reward states that gave the franchise to their black
populations and penalize those that did not, while also
taking account of numerous factors that affected the
apportionment calculus for different states. Leveraging
amicus Rosin’s exhaustive review of historical sources,
Section I traces how Congress chose to define the
apportionment basis as broadly as possible, and address
disenfranchisement through a separate “penalty”
provision. Along the way, Congress considered and
rejected multiple proposals for alternative, less-expansive
definitions for apportionment.
Section II deconstructs Amici’s attempts to argue
that the President can (or must) exclude illegal aliens
from the apportionment basis. First, the historical
evidence contradicts Amici’s effort to conflate the terms
“persons” and “inhabitants.” See § II.A. Next, Section
II.B reveals the flaws in Amici’s attempts to misread
“persons” as referring to a subset defined by political
participation, like “citizens” or “voters.” Amici overlook
the text and history of the Section 2 of the Fourteenth
Amendment in claiming that the usage of “citizens” in the
Penalty Clause somehow redefines the usage of “persons”
in Section 2’s first sentence. Finally, Section II.C clarifies
how the Penalty Clause’s math works and thereby shows
that the Brooks Amici in particular rest their theories on
an incorrect application of the Clause. For these reasons,
-3-

the Court should reject any attempt to exclude illegal
aliens from “the whole number of persons” comprising
each state’s apportionment basis under Section 2 of the
Fourteenth Amendment.
The Court should affirm the judgment below.
ARGUMENT
I.

Congress Intended The Apportionment Basis
To Include All Persons In Each State, Including
Undocumented Persons.

The Thirty-Ninth Congress determined that
“Representatives shall be apportioned among the several
States according to their respective numbers, counting
the whole number of persons in each State.” U.S. Const.
amend. XIV, § 2. Amici misread Congress’s use of the
inclusive term “person.” They would limit apportionment
to a narrower group than all persons, namely “citizens” or
“members of the body politic” (as they understand the
latter). See Alabama Br. at 7; Brooks Br. at 17. But the
historical record shows that Congress chose—
deliberately and advisedly—not to limit apportionment in
that way.
As explained below, the Thirty-Ninth Congress
considered and rejected a series of proposals that would
have limited the apportionment basis to citizens or even
just to persons eligible to vote. Instead, it arrived at the
inclusive solution evident in the plain text of Section 2 of
the Fourteenth Amendment. Amici’s interpretations
cannot be reconciled with the record of Congress’s
deliberations. Yet Amici do not even mention, let alone
explain or account for, the Thirty-Ninth Congress’s
process for defining the group whose “whole number”
would serve as the apportionment base.
-4-

A. The Historical Context: Congress Began to
Grapple with Post-Abolition Apportionment.
Momentous changes marked the interval between
the expiration of the Thirty-Eighth Congress on March 3,
1865 and the convening of its successor nine months later:
The Civil War had ended. Abraham Lincoln had been
assassinated and succeeded by Andrew Johnson. The
constitutional abolition of slavery was nearing fruition
with the impending ratification of the Thirteenth
Amendment. 2 The states formerly in rebellion were on a
path leading to full integration into the national
government. Their new state constitutions abolished
slavery but continued to disenfranchise their entire black
populations. 3
2

Proclaimed by Secretary of State William H. Seward on
December 18, 1865. 13 Stat. 774. Seward made sure to
affirm the necessity of ratifications by three-fourths of the
thirty-six states in the Union, thereby affirming the
position of the Johnson (and Lincoln) administration that
the states formerly in rebellion had never left the Union.
Id. at 775.
3

By December 1865 seven of the states formerly in
rebellion had adopted new state constitutions. All of them
contained provisions that limited suffrage to adult white
males. Ala. Const. of 1865, art. VIII, § 1, 2 The Federal
and State Constitutions, Colonial Charters, and Other
Organic Laws of the States, Territories, and Colonies
Now or Heretofore Forming the United States of
America 131 (Francis Newton Thorpe, ed., Government
Printing Office 1909) [hereinafter Thorpe]; Ark. Const. of
1864, art. IV, § 2, id. at 291; Fla. Const. of 1865, art. VI, §
1, 2 id. at 695; Ga. Const. of 1865, art. V, § 1, id. at 821; La.
Const. of 1864, art. III, § 14, 3 id. at 1433; S.C. Const. of
-5-

Members of the Thirty-Eighth Congress
recognized the need to adjust the constitutional rules for
apportionment. Without change, the newly emancipated
slave populations of the eleven states previously in
rebellion would be counted as whole persons rather than
just three-fifths 4 even though their states denied them the
right to vote. Based on the 1860 census, these states would
see their share of the nation’s apportionment basis grow
by a bit more than one-tenth, from 26.04 percent to 29.23
percent. 5 Put another way: Before abolition the enslaved
population secured eighteen seats in the House and
eighteen votes in the Electoral College. Post-abolition,
counting the former enslaved population as whole persons
would increase those numbers from eighteen to thirty. It

1865, art. IV, § 6, 6 id. at 3276; Va. Const. of 1864, art. III,
§ 1, 7 id. at 3854–55. The other four former states of the
Confederacy retained their constitutional bans on black
suffrage. Miss. Const. of 1832, art. III, § 1, 4 id. at 2051;
N.C. Const. of 1835, amend. I, § 2, 5 id. at 2796; Tenn.
Const. of 1834, art. IV, § 1, 6 id. at 3433; Tex. Const. of
1845, art. III, § 1, id. at 3549.
4

See U.S. Const. art. I, § 2, cl. 3.

5

For the state by state count of slaves and free persons in
the 1860 see Preliminary Report of the Eighth Census
134–135 (Government Printing Office 1862). Available at
http://www2.census.gov/prod2/decennial/documents/1860
e-01.pdf through http://www2.census.gov/prod2/decennial
/documents/1860e-07.pdf. The percentages given have not
deducted West Virginia’s population from Virginia’s.
-6-

was generally understood that ten of these twelve seats
would be in the states formerly in rebellion. 6
Lawmakers were thus well aware that, absent
constitutional amendment, abolition would increase the
political power of the states formerly in rebellion even as
those states denied former slaves the fundamental right
to vote. As Ohio Republican Representative William
Lawrence noted:
If this injustice can be tolerated and perpetuated,
and the late rebel States shall soon be admitted to
representation, they will enjoy as the reward of
their perfidy and treason increased political
power. This will reward traitors with a liberal
premium for treason.
Cong. Globe, 39th Cong., 1st Sess. 404 (Jan. 24, 1866).
To align the apportionment of the House of
Representatives and the Electoral College with the new
constitutional order created by the abolition of slavery
Congress needed to replace the Constitution’s original
rule for the interstate apportionment of the House of
Representatives (and direct taxes):
Representatives and direct taxes shall be
apportioned among the several states which may
be included within this union, according to their
respective numbers, which shall be determined by
adding to the whole number of free persons,
including those bound to service for a term of

6

See, e.g., for example, the remarks of Roscoe Conkling
and William Lawrence. Cong. Globe, 39th Cong., 1st Sess.
357 (Jan. 22, 1866); Id. at 403 (Jan. 24, 1866).
-7-

years, and excluding Indians not taxed, three fifths
of all other Persons.
U.S. Const. art. 1, § 2, cl. 3.
Congress decided to achieve that goal by
rewarding the former slave states that gave the franchise
to their black population and penalizing those that did not.
That process began during the Thirty-Eighth Congress,
when the House narrowly approved a resolution
submitted by Wisconsin Republican Ithamar Sloan based
on “qualified electors”:
That the Judiciary Committee be instructed to
inquire into the expediency of so amending section
2 of article 1 of the Constitution of the United
States that representatives in Congress shall be
apportioned among the several States which may
be included within the Union according to their
respective numbers of qualified electors, and to
report by bill or otherwise.
Cong. Globe, 38th Cong., 2nd Sess. 6 (Dec. 7, 1864).
In the Senate, Charles Sumner introduced a
proposal based on “male citizens” qualified to vote:
Representatives shall be apportioned among the
several States which may be included within this
Union, according to the number of male citizens of
age having in each State the qualifications of
electors of the most numerous branch of the State
legislature.
Id. at 604 (Feb. 6, 1865). The Senate committed it to the
Judiciary Committee. Id. Neither proposal went any
further in the Thirty-Eighth Congress.

-8-

B. The Thirty-Ninth Congress Considered—And
Rejected—Language That Would Have Limited The
Basis of Apportionment To Voters or Citizens.
Congress returned to the pressing problem of
apportionment on the opening day of the Thirty-Ninth
Congress. For the next six months, lawmakers
deliberated proposals in committee and on the House and
Senate floors, searching for a solution that would balance
competing interests in the manner of apportionment and
the penalty for disenfranchising persons of color. The
specifics of those deliberations are highly relevant,
because the record unequivocally confirms that Congress
(1) chose “whole persons” as the basis for apportionment
instead of narrower categories such as voters or citizens;
and (2) did so knowing—indeed, because—the term
“persons” included aliens. At the time, aliens formed a
significant part of the population of northern states but
not of the states formerly in rebellion.
1. Competing Approaches Emerged Early In
The Thirty-Ninth Congress.
On the opening day of the Thirty-Ninth Congress,
Representative Thaddeus Stevens proposed an
amendment that continued the early trend of pegging the
apportionment basis to each state’s population of voters.
His goal was to deny additional representation to states
that disenfranchised persons formerly enslaved. His
language used “legal voters” as the basis for
apportionment:
Representatives shall be apportioned among the
States which may be within this Union according
to their respective legal voters; and for this purpose
none shall be named as legal voters who are not
either natural-born citizens or naturalized
-9-

foreigners. Congress shall provide for ascertaining
the number of said voters. A true census of the
legal voters shall be taken at the same time with
the regular census.
Cong. Globe, 39th Cong., 1st Sess. 10 (Dec. 4, 1865)
(emphasis added).
Stevens’s proposal touched off immediate debate.
Maine Republican James Blaine led the attack, arguing
“As an abstract proposition no one will deny that
population is the true basis of representation; for women,
children, and other non-voting classes may have as vital
an interest in the legislation of the country as those who
actually deposit the ballot.” Id. at 141. Blaine recognized
a key distinction between the interests of voters (to select
representatives and thereby shape the government) and
the interests of the general population (to be fairly
represented and governed).
Blaine lodged two additional critiques of Stevens’s
suffrage-based proposal. He first zeroed in on the impact
of Stevens’s proposal on individual states, observing that
“[t]he ratio of voters to population differs very widely in
different sections, varying in the States referred to from
a minimum of nineteen per cent. to a maximum of fiftyeight per cent., and the changes which this fact would
work in the relative representation of certain States
would be monstrous.” Id. Blaine pointed out that
California, with a population not quite fifteen percent
larger than Vermont’s, would have nearly three times the
representation and Indiana, with a population not even
ten percent greater than Massachusetts, would have fifty
percent more representation. 7 Id.

7

The following table summarizes Blaine’s data.
- 10 -

Although Blaine did not provide the source for his
census
data,
voter
numbers,
or
projected
8
apportionments, his point holds, specific numbers aside:
The ratio of voter population among the states can vary
significantly from the ratio of total population among the
states. Using voter population as the apportionment basis
would add to some states’ representation in the House
relative to their populations while reducing that of others.
Blaine also argued that using voter population as
the apportionment basis would touch off “an unseemly
scramble in all the States . . . to increase by every means
the number of voters,” including that “[f]oreigners would
be invited to vote on a mere preliminary ‘declaration of
intention.’” Id. He presented an alternative approach,
with a more expansive definition of the apportionment
basis:
Representatives and direct taxes shall be
apportioned among the several States which may

Populati
on
Cal.

Rati
o

358,110
1.14

Vt.
Ind.

314,369
1,328,710

Mas
s.

1,221,432

1.09

Voter
s

Rati
o

207,00
0
2.38
87,000
316,82
4
1.39
227,42
9

8

Project
ed
Reps.
8

Rati
o
2.67

3
15
10

1.50

Nor did he in his memoirs. See James G. Blaine, 2
Twenty Years of Congress 194 (Henry Hill Publishing Co.
1886).
- 11 -

be included within this Union according to their
respective numbers, which shall be determined by
(taking the whole number of persons except those
to whom civil rights or political rights or
privileges are denied or abridged by the laws of
any State on account of race or color.)
Id. at 141-42 (emphasis in original).
Critically, the early Stevens and Blaine proposals
embodied two potential, competing approaches to
apportionment: (1) define the relevant subset of the
population, count it, and apportion based on that count
(Stevens); or (2) count the entire population, calculate a
penalty reflecting the extent of voter disenfranchisement,
apply the penalty to the entire population, and apportion
based on the result (Blaine). The Thirty-Ninth Congress
cycled through permutations of these two approaches for
months. Ultimately, Congress adopted a variant of
Blaine’s penalty-based approach.
2. The Joint Committee On Reconstruction
Proposed A Penalty-Based Approach.
When the Joint Committee on Reconstruction took
up the issue, a day after Blaine’s remarks, Thaddeus
Stevens and Roscoe Conkling immediately offered
variants of Stevens’s suffrage-based proposal that
restricted the apportionment basis to adult male citizens.
The Journal of the Joint Committee of Fifteen on
Reconstruction 39th Congress, 1865-1867 41 (Benjamin B.
Kendrick ed., Columbia University Press 1914), available
at https://babel.hathitrust.org/cgi/pt?id=pst.0000120354
41&view=1up&seq=1 (last visited Nov. 12, 2020)
[hereinafter Journal of the Joint Committee]. Three days
later the Joint Committee heard proposals from Justin
Morrill, George Williams, and Roscoe Conkling that were
- 12 -

variations of the indirect penalty-based approach
suggested by Blaine. Id. The following table compares
those proposals:
Author

Basis

Rep.
Morrill
(Vermont)

“All of any race or color,
whose members or any of
Persons them are denied any of the
civil or political rights or
privileges”

Sen.
Williams
(Oregon)

“Negroes, Indians, Chinese,
and all persons, not white,
Persons who are not allowed the
elective franchise by the
Constitutions of the State”

Rep.
Conkling
(New York)

United
States
citizens

Exclusion

“Whenever in any State civil
or political rights or privileges
shall be denied or abridged on
account of race or color, all
persons of such race or color”

Massachusetts Representative George Boutwell
then made a more radical proposal. It would have based
apportionment (of representatives and direct taxes) on
the number of United States citizens while prohibiting
“distinction in the exercise of the elective franchise on
account of race or color.” Id. at 44. Maryland Democratic
Senator Reverdy Johnson also made a proposal to
apportion representatives (but not direct taxes) according
to the number of legal voters. It was rejected by a vote of
6–8. Id. at 45.

- 13 -

The Committee finished the first phase of its work
on the revised basis of apportionment on January 16,
1866. It started by considering two candidate texts: the
Boutwell-inspired Article A and the Conkling-inspired
Article B, each of which excluded aliens from the
apportionment basis.
Article A
Representatives and direct taxes shall be
apportioned among the several States within this
Union, according to the respective numbers of
citizens of the United States in each State; and all
provisions in the Constitution or laws of any State,
whereby any distinction is made in political or civil
rights or privileges, on account of race, creed or
color, shall be inoperative and void.
Article B
Representatives and direct taxes shall be
apportioned among the several States which may
be included within this Union, according to their
respective numbers, counting the whole number of
citizens of the United States in each State;
provided that, whenever the elective franchise
shall be denied or abridged in any State on account
of race, creed or color, all persons of such race,
creed or color, shall be excluded from the basis of
representation.
Id. at 50-51. By a vote of 11–3, the Committee chose
Article B amended to make the deduction against the
basis of representation but not direct taxation. Id. at 5152. Conkling immediately moved to change the initial
basis of apportionment from United States citizens to
“persons in each state, excluding Indians not taxed,”
which the Committee also approved 11–3. Id. at 52. The
- 14 -

Committee then approved, by a 13–1 vote, the resulting
text, defining the apportionment basis with the broad
term “persons” rather than the narrower “citizens”:
Representatives and direct taxes shall be
apportioned among the several States which may
be included within this Union, according to their
respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed;
provided that whenever the elective franchise shall
be denied or abridged in any State on account of
race or color, all persons of such race or color shall
be excluded from the basis of representation.
Id. at 53.
3. The House Approved The Joint Committee’s
Penalty-Based Approach.
On January 22, the House began ten days of
deliberations on the Committee’s proposal that saw
numerous objections and proposed revisions. Cong.
Globe, 39th Cong., 1st Sess. 351 (Jan. 22, 1866). On the
first day of debate, Wisconsin Republican Ithamar Sloan
offered a Stevens-esque alternative, apportioning House
representation among the states “according to their
respective number of qualified electors” as determined by
decennial enumeration. Id. at 352. Two days later Ohio
Republican Robert Schenck 9 introduced a proposal that
9

That advocacy for suffrage-based apportionment came
from the somewhat less immigrant-populated states west
of the Ohio-Pennsylvania boundary (and north of the Ohio
River) is no coincidence; many of these states
enfranchised their declarant aliens. Seven states granted
suffrage to their declarant alien residents. Ind. Const. of
1851, art. II, § 2, 2 Thorpe supra note 3, at 1076; Kan.
- 15 -

limited the apportionment basis to adult male citizens
eligible to vote for the most numerous branch of their
state legislature. Id. at 407. Fellow Ohioan William
Lawrence articulated the link between the suffrage-based
definitions of the apportionment basis and the exclusion
of large population segments from representation,
arguing that the Committee’s proposal “disregards the
fundamental idea of all just representation, that every
voter should be equal in political power” because it “gives
representation to women, children, and unnaturalized
foreigners.” Id. at 404. But John Bingham, another Ohio
Republican, pointed out the real-world implications of
excluding Lawrence’s “unnaturalized foreigners” from
the apportionment base: “Every man knows that the
great body of the immigrant population of America always
has been and now is confined to the free loyal States.
There is no considerable portion of it found anywhere
within the limits of the eleven Rebel States.” Id. at 432.
The House then moved on to operationalizing the
Joint Committee’s proposal to penalize states for denying
or abridging the franchise “on account of race or color.”
Specifically, House members grappled with how to define
“race or color” and how to define when denial or
abridgment of the franchise occurs “on account of” a
Const. of 1859, art. 5, § 1, cl. 2, id. at 1251; Mich. Const. of
1850, art. VII, § 1, 4 Id. at 1956; Minn. Const. of 1857, art.
VII, § 1, 4 Id. at 2007; Mo. Const. of 1865, art. II, § 18, id.
at 2198; Or. Const. of 1857, art. II, § 2, 5 Id. at 3000; Wis.
Const. of 1848, art. III, § 1, 7 Id. at 4080. Michigan also
granted suffrage to any alien resident on June 24, 1835 or
January 1, 1850, the dates its first two constitutions were
adopted.

- 16 -

prohibited category. See, e.g., id. at 433 (Jan. 25, 1866)
(Pennsylvania Republican John Broomall noting that
“there is a great deal of indefiniteness in both these terms
‘race’ and ‘color’ . . . the term ‘color’ is nowhere defined in
the Constitution or the law”); id. at 380, 385-86, 409, 456
(various representatives discussing existing and potential
measures like property qualifications, literacy and
intelligence tests, and tax-paying status).
Early proposed solutions to these questions
included Rhode Island Republican Thomas Jenckes’s
proposal to amend the Constitution to specify the
qualifications necessary to vote for House members and
presidential electors. Id. at 386. Illinois Republican Ebon
Ingersoll offered a more limited amendment that would
have banned property qualifications. Id. at 385. New York
Republican Hamilton Ward proposed grandfathering all
voter qualifications in effect as of January 1, 1866 and
penalizing all new qualifications on “the elective
franchise.” Id. at 434.
This exchange yielded the first proportional, nonrace-based penalty proposal. It did not use citizenship or
suffrage to define the apportionment base. Rather, the
proposal, offered by Illinois Republican Henry Bromwell,
provided:
Representatives in the House of Representatives
shall be apportioned among the different States in
the same proportion to the whole number of
inhabitants in each State respectively (excluding
Indians not taxed) as the number of male citizens
qualified by the laws of such States to vote for
representatives in the most numerous branch of
the Legislature thereof is to the whole number of
such citizens in such States, the enumeration and

- 17 -

apportionment thereof to be made in such manner
as Congress shall by law direct.
Id. at 409 (emphasis added). Representative Broomall
refined Bromwell’s language the next day, expanding the
apportionment basis definition from “inhabitants” to
“persons”:
Representatives and direct taxes shall be
apportioned among the several States which may
be included within this Union according to their
respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed:
Provided. That whenever the elective franchise
shall be denied by the constitution or laws of any
State to any proportion of its male citizens over the
age of twenty-one years, the same proportion of its
population shall be excluded from its basis of
representation.
Id. at 433 (emphasis added).
On January 29, Thaddeus Stevens had the Joint
Committee’s proposed amendment recommitted to the
Committee. The Committee struck the reference to
“direct taxes” but otherwise left it intact. Journal of the
Joint Committee 58. Stevens then reintroduced it in the
House, as follows:
Representatives shall be apportioned among the
several States which may be included within this
Union according to their respective numbers,
counting the whole number of persons in each
State, excluding Indians not taxed: Provided. That
whenever the elective franchise shall be denied or
abridged in any State on account of race or color,
all persons therein of such race or color shall be
excluded from the basis of representation.
- 18 -

Cong. Globe, 39th Cong., 1st Sess. at 535. That language
passed the House 120–46. Id. at 538. The penalty-based
approach, with the expansive “whole number of persons”
apportionment base, seemed to be on its way.
4. The Senate Rejected The Committee
Proposal, But Laid The Groundwork For
Resolution.
The House’s decision to retain the Joint
Committee’s race-based penalty definition (rather than
adopt the Broomall/Bromwell definition) did not sit well
with the Senate. After several weeks of debate in
February and March 1866, the Senate could not muster
the two-thirds majority needed to ratify the amendment.
The debate cycled through familiar concerns: For
example, Massachusetts Republican Charles Sumner
lamented that the penalty-based amendment would
“admit in the Constitution the twin idea of Inequality in
Rights . . . while you blot out a whole race politically.” Id.
at 673; see also id. at 1183 (Kansas Republican Samuel
Pomeroy stating concern that under the penalty-based
approach “colored men may fight for the Government, be
taxed for the Government, but shall go unrepresented and
disfranchised forever”). Maine Republican William Pitt
Fessenden responded to the Sumner/Pomeroy view with
the simple observation that the penalty-based approach
no more condoned disenfranchisement than a thirty-day
prison sentence condoned theft. Id. at 1279.
But the Sumner/Pomeroy camp was unconvinced,
and saw only two possible solutions to the potential
disenfranchisement of black voters: a direct constitutional
bar or suffrage-based apportionment. Sumner, Pomeroy,
and others offered proto-Fifteenth Amendment
proposals, but none carried. See, e.g., id. at 702, 1182, 1288.

- 19 -

That left suffrage-based apportionment. On March
1, 1866, Nevada Republican William Stewart stated that
at the proper time he would offer the following
replacement for the Joint Committee’s penalty-based
proposal:
Representatives shall be apportioned among the
several States which may be included within this
Union according to the number of male citizens of
the United States in each State over twenty-one
years of age qualified by the laws thereof to choose
members of the most numerous branch of its
Legislature. And direct taxes shall be levied in
each State according to the value of real and
personal property situated therein not belonging
to the State nor the United States.
Id. at 1103. On March 8, Massachusetts Republican
Henry Wilson observed that Clark’s proposal, and indeed
any suffrage-based approach, “throws out of the basis at
least two and half millions 10 of unnaturalized foreign-born
men and women, and by this we lose at least fifteen
Representatives in the other house and fifteen
presidential electors; and they do not go from the East to
the West, but from the North to the South.” Id. at 1256.
Highlighting the cyclical nature of the debate, Wilson’s
point echoed the argument John Bingham made in the
House on January 25. Id. at 432 (observing that “the

10

It is unclear how Wilson derived this figure. Mr. Rosin
has conducted his own analyses using 1860 census data.
Those analyses indicate that Wilson’s points are
directionally correct: Suffrage-based schemes which
excluded aliens from the apportionment base would have
shifted political power to the South.
- 20 -

immigrant population of America always has been and is
now confined to the free loyal States”).
Despite a flurry of proposed amendments, on
March 9 the Senate fell seven votes short of the 32 (out of
47) needed to ratify the Joint Committee’s proposal. Id. at
1289. The Senate did not, however, approve a suffragebased replacement.
Iowa Republican James Grimes—also a Joint
Committee member—laid the groundwork for an
eventual resolution by proposing language similar to the
Broomall/Bromwell text:
Representatives shall be apportioned among the
several States which may be included in this Union
according to their respective numbers, counting
the whole number of persons in each State,
excluding Indians not taxed; but whenever in any
State the elective franchise shall be denied to any
portion of its male citizens above the age of twentyone years, except for crime or disloyalty, the basis
of representation shall be reduced in the
proportion to which the number of male citizens so
excluded shall bear to the whole number of male
citizens over twenty-one years of age.
Id. at 1320 (emphasis added to show Grimes’s alteration
to Broomall’s text). Presaging the Grimes/Broomall
approach’s potential to garner wide support, Charles
Sumner, who had vehemently opposed the Joint
Committee’s race-based penalty approach, proposed
language very similar to Grimes’s text on the same day.
Id. at 1321.
5. The Joint Committee
Grimes/Broomall
Approach,
Ratification By Congress.
- 21 -

Embraced
Leading

The
To

When the Joint Committee resumed its
deliberations in April 1866, Thaddeus Stevens moved to
adopt the Committee’s original proposal—with the racebased penalty definition—as Section 2 of the Fourteenth
Amendment. Journal of the Joint Committee 84-85.
Oregon Senator George Williams immediately proposed
the following replacement language (substantively
identical to Grimes’s proposal in the Senate):
Representatives shall be apportioned among the
several states which may be included within this
Union according to their respective numbers,
counting the whole number of persons in each
State excluding Indians not taxed. But whenever
in any State the elective franchise shall be denied
to any portion of its male citizens, not less than
twenty-one years of age, or in any way abridged,
except for participation in rebellion or other crime,
the basis of representation in such State shall be
reduced in the proportion which the number of
such male citizens shall bear to the whole number
of male citizens not less than twenty-one years of
age.
Id. at 84-85.
On April 30, 1866, Thaddeus Stevens reported the
Joint Committee’s proposed Fourteenth Amendment,
including Williams’s language above as Section 2, to the
House. After two days of debate, the House approved it
128-37, without voting on a single potential alteration.
Cong. Globe, 39th Cong., 1st Sess. 2545 (May 10, 1866).
The Senate began its deliberations on May 23, and,
true to form, was not so quick to reach resolution. First,
some opponents tried to resurrect the suffrage-based
apportionment approach. See id. at 2942 (proposals by
- 22 -

Representative Doolittle), 2986 & 2991 (recording votes
defeating proposals).
The Senate also considered whether, in the
absence of a race-based penalty, there were any impartial
suffrage limitations or qualifications that would not
trigger the penalty. Indeed, Senator Wade offered a
version of Section 2 that would have added “alienage” to
“participation in rebellion or other crime” as exclusions
from the penalty for denial or abridgement of the
franchise. Id. at 2768. That proposal did not gain traction.
On June 6, George Williams proposed a
replacement for the version approved by the Joint
Committee and the House:
Representatives shall be apportioned among the
several States which may be included within this
Union, according to their respective numbers,
counting the whole number of persons in each
State, excluding Indians not taxed. But whenever
in any State the elective franchise right to vote at
any election held under the Constitution and laws
of the United States, or of any State, is shall be
denied to any portion of its of the male inhabitants,
being twenty-one years of age and citizens of the
United States, not less than twenty-one years of
age, or in any way abridged except for
participation in rebellion or other crime, the basis
of representation therein in such State shall be
reduced in the proportion which the number of
such male citizens shall bear to the whole number
of male citizens not less than twenty-one years of
age.
Id. at 2991 (altered to show Williams’s additions
(underlined) and deletions (strike-through)).
- 23 -

On the final day of Senate debate, Democrat
Reverdy Johnson, a recurring antagonist of Section 2
during its travels through the Senate, pointed out the
need to distinguish between statewide and municipal
elections. Id. at 3027. In response, Williams proposed
changing “the right to vote at any election held under the
Constitution and laws of the United States, or of any
State” to “the right to vote at any election for the choice
of electors for President and Vice President of the United
States, Representatives in Congress, the executive and
judicial officers of a State, or members of the Legislature
thereof.” Id. at 3029. With that, the Senate’s proposed
replacement for the text approved by the House became
Section 2 as we now know it. The Senate then approved
the entire Fourteenth Amendment 33-11, id. at 3042, and
the House followed suit, 120-32, after less than a day’s
debate, id. at 3149.
II. The Deliberations Of The Thirty-Ninth Congress
Confirm That The President Cannot Unilaterally
Exclude Illegal Aliens From The Apportionment
Basis.
The historical record shows that the Thirty-Ninth
Congress chose every key word and phrase of Section 2
advisedly, after multiple rounds of debate and revision.
Critically, Congress employed great care in its use of the
three plural nouns used to denote the relevant population
sets. The most expansive term, “persons,” defines the
apportionment basis in the absence of a penalty. The term
“citizens” only appears in the calculation of the penalty.
The term “inhabitants” also only appears in the penalty
calculation, to clarify that the penalty does not apply to
the denial of the franchise to a United States citizen who
is not an inhabitant of the state but happens to be in the
state on an election day. See Cong. Globe, 39th Cong., 1st
- 24 -

Sess. 2869 (May 29, 1866) (comment of Senator Howard).
Section 2 thus directs that apportionment be based on
each state’s entire population, not a subset defined as
citizens or voters.
The contrary interpretations offered by Amici
conflict with Section 2’s plain language and the ThirtyNinth Congress’s drafting choices. Their claims that
undocumented aliens can or must be excluded from the
apportionment basis fall apart under scrutiny.
1. Amici conflate the terms “persons” and
“inhabitants” even though Congress chose to use them for
different purposes in Section 2. See Ala. Br. at 2, 20-22;
Brooks Br. at 15, 19. Their mistaken conclusion requires
four steps, laid out in Alabama’s brief: (1) The Framers
initially used the word “inhabitants” in Article I’s
Apportionment Clause, Ala. Br. at 2; (2) The Framers
supposedly understood “inhabitants” to denote “a deeper
and more lasting connection with a State than presence
alone,” id. at 2; see also id. at 14-16; (3) When the
Committee of Style changed “inhabitants” to “persons”
prior to ratification, it did not change the meaning of the
Clause, id. at 2, 12; and (4) The Thirty-Ninth Congress
meant “inhabitants” when it used “persons” in drafting
and ratifying Section 2. Id. at 2 (“It was that
understanding that was incorporated in the Fourteenth
Amendment and still governs today.”), 20-22.
Whatever the historical merit of steps (2) and (3),
amici’s logic collapses at step (4). First, it ignores the plain
language and usage of Section 2. The Thirty-Ninth
Congress used the words “persons” and “inhabitants” not
interchangeably, but to perform qualitatively different
functions. It chose “the whole number of persons in each
state” as the base quantity by which “Representatives
shall be apportioned among the several states.” U.S.
- 25 -

Const. amend. XIV, § 2 (emphasis added). It selected “the
adult male citizens of such state” as the starting point for
figuring out the numerator and denominator of the
penalty percentage imposed against a state that denied or
abridged “the right to vote.” Id. (emphasis added). And
then it used “inhabitants” to qualify adult male citizens
and thereby ensure that a state’s penalty numerator
would not include an adult, male, United States citizen
who could not vote in that state because he was merely
visiting on election day. Simple logic shows that Congress
understood “persons” and “inhabitants” to have different
meanings and employed those words for very different
purposes in Section 2. This alone dooms Amici’s position.
So does the historical record. As discussed above,
Representative Bromwell offered the first penalty-based
proposal that did not define the penalty in terms of race.
His proposal used “inhabitants” to define the
apportionment basis. Cong. Globe, 39th Cong., 1st Sess.
409 (Jan. 24, 1886) (“Representatives in the House of
Representatives shall be apportioned among the different
States in proportion to the whole number of inhabitants
in each State. . . .” (emphasis added)). The next day,
Representative Broomall refined Bromwell’s proposal by
incorporating proportionality into the penalty definition.
In so doing, he reverted back to “persons” for his
definition of the apportionment basis. Id. at 433
(“Representatives and direct taxes shall be apportioned
among the several States . . . according to their respective
numbers, counting the whole number of persons in each
State. . . .” (emphasis added)). As the discussion above
makes clear, Broomall’s proposal was the conceptual
framework for the eventual language of Section 2, via a
circuitous path through both houses and the Joint
Committee. Indeed, after Broomall’s proposal, “the whole
number of persons” remained stable as the definition of
- 26 -

the apportionment basis through the rest of Congress’s
deliberations.
In other words, the historical evidence shows that
Congress specifically decided to use “persons” and not to
use “inhabitants” to specify the default, penalty-free
apportionment basis. Amici cannot rewrite Section 2 to
substitute “inhabitants” (let alone, their preferred
definitions of that term) for the word that Congress chose
to define the apportionment basis.
2. The Thirty-Ninth Congress’s deliberations also
undermine Amici’s efforts to equate “persons” with
“members of the body politic” (in their restricted sense).
See Ala. Br. at 8; Brooks Br. at 16. Congress’s
deliberations make clear that Amici are incorrect.
Congress employed different groups for analytically
distinct tasks in Section 2.
First, the Thirty-Ninth Congress chose to define
the apportionment basis broadly, without reference to
political participation or membership in the body politic
beyond an obligation to pay taxes. Following a robust
political debate, Congress decided to use “the whole
number of persons” in a state (excluding Indians not
taxed 11) as the base quantity that would be used to
11

“Indians not taxed” were excluded from the body politic
precisely because they were not taxed. As Representative
Bingham observed, they “are not part of the body-politic
of the United States until they are subject to taxation”).
Cong. Globe, 39th Cong., 1st Sess. 431. See also id. at 498
(Representative Trumbull, addressing the Civil Rights
Bill of 1866, stating that “We deal with them by treaty,
and not by law, except in reference to those who are
incorporated into the United States as some are, and are
taxable and become citizens”). By implication, Native
- 27 -

apportion representatives to that state. U.S. Const.
amend. XIV, § 2. Lawmakers did not merely carry
forward existing language without regard to its meaning.
The exact opposite is true: as explained above, Congress
considered and ultimately rejected using “inhabitants” or
subsets of the body politic for that purpose. For example,
the first proposal made in the House used the states’
“respective legal voters.” Cong. Globe, 39th Cong., 1st
Sess. 10 (Dec. 4, 1865) (proposal by Representative
Stevens); see also Journal of the Joint Committee at 45
(proposal by Representative Johnson). Representative
Blaine’s response to Stevens’s proposal used “the whole
number of persons except those to whom civil rights of
political rights or privileges are denied or abridged . . . on
account of race or color.” Cong. Globe, 39th Cong., 1st
Sess. 141-42 (emphasis in original). Other rejected
proposals used “citizens of the United States in each
State.” See Journal of the Joint Committee at 44
(Representative Boutwell’s proposal); 50-51 (proposals by
Representatives Boutwell and Conkling).
By contrast, Congress used the concept of political
participation to define the penalty. In the second sentence
(the “Penalty Clause”) of Section 2, Congress defined a
fraction, as follows:
Male citizens twenty-one or older to whom the
right to vote has been denied or abridged (except
for participation in rebellion or other crime)
divided by
Male citizens twenty-one or older
Americans became part of the body politic as soon as they
became subject to taxation, and, if native born outside of
tribal relations, citizens of the United States.
- 28 -

U.S. Const. amend. XIV, § 2.
The Penalty Clause then instructs that “the basis
of representation,” i.e. the entire population, “shall be
reduced” in that proportion. Id. The purpose of the
Penalty Clause is to disincentivize each state from
withholding the franchise from adult male citizens of the
United States who are inhabitants of the state. It
therefore made perfect sense to peg the penalty to the
extent to which the state as a single, entire political
community denied or abridged political participation.
The fact that aliens could be denied the right to
vote without penalty does not mean that Congress
intended to exclude aliens from the apportionment basis.
The Brooks Amici wrongly argue that the “wording of the
[Penalty Clause’s] text suggest[s] strongly that the
Framers of the Fourteenth Amendment intended that
aliens were to be excluded from the apportionment base.”
Brooks Br. at 18. In fact, the apportionment basis and the
penalty
provision
serve
different
purposes.
Apportionment, as Congress designed the system, is
based on population, and included numerous persons who
had no right to vote. House seats “‘serve all residents, not
just those eligible or registered to vote.’” Useche v.
Trump, No. 8:20-cv-02225-PX-PAH-ELH, slip op. at 26
(D. Md. Nov. 6, 2020) (per curiam) (quoting Evenwel v.
Abbott, 136 S. Ct. 1120, 1132 (2016)). The Penalty Clause
sought to deter a particular evil: disenfranchising votingeligible citizens. It is not an interpretative constraint on
the definition of the apportionment basis, which Congress
chose advisedly to define as broadly as it could.
3. The Brooks Amici not only seek to re-write the
plain language of Section 2, they also premise their
arguments on a serious misunderstanding of how the

- 29 -

Penalty Clause works. See Brooks Br. at 18-19 (giving
two-state numerical example).
Here is how the Penalty Clause actually works,
based on Section 2’s plain language. Consider a state with
a total population of ten million, and voting-age citizen
population of six and a half million. Assume that the voting
rights of two million six hundred of its voting-age citizenry
are adjudged to have been denied or abridged. The
following table shows the Penalty Clause calculations.
Total Population (Apportionment
Basis)

10,000,000

Adult Citizens

6,500,000

Adult Citizens Disenfranchised

2,600,000

Penalty Rate

40%

Penalty Amount (Penalty
times Total Population)

Rate

Apportionment
Basis
(Total
Population minus Penalty Amount)

4,000,000 12
6,000,000

The Brooks Amici’s calculation does not follow
Section 2’s instructions. To begin with, they draw a
distinction—between citizens and aliens—that is not
relevant under Section 2. Section 2 distinguishes between
voting-age citizens and everyone else, not between
citizens and aliens. Then, Amici simply ignore the
12

Supposing the 2,600,000 disenfranchised adult citizens
were themselves removed from the apportionment basis,
who would be the other 1,400,000 making up the penalty
amount?
- 30 -

proportional calculation that Section 2 requires,
calculating the “penalty” as if only those adult citizens
who are denied the right to vote are removed from the
apportionment basis. In other words, they read the
Clause as directing that “the basis of representation
therein shall be reduced” by the number of such citizens
whose right to vote has been denied or abridged, not “in
the proportion which” that number “shall bear to the
whole number of” voting-age citizens. U.S. Const. amend.
XIV, § 2. With that faulty logic they conclude that the
impact of the penalty on a state with no aliens (state A) is
twice as great as the impact on a state with as many aliens
as citizens.
A proper application of the Clause reduces a state’s
apportionment basis because the state has denied of
abridged the right to vote of its voter population, in direct
proportion to the extent of the denial or abridgment
among its adult citizenry. The Clause does not remove
from the apportionment basis the actual group of voters
whose voting rights were curtailed. Amici, and at least one
commentator, see Thomas A. Berry, The New Federal
Analogy: Evenwel v. Abbott and the History of
Congressional Apportionment, 10 New York University
Journal of Law & Liberty 208, 249 (2016), are thus
incorrect to claim that because adult citizens whose voting
rights have been denied or abridged are themselves
excluded from the apportionment basis, therefore aliens
should be excluded because they have no right to vote.
Section 2 imposes the apportionment penalty across a
state’s entire population based on the proportion of adult
citizens who are denied the right to vote, over all adult
citizens, not by deducting a specific group of
disenfranchised persons.

- 31 -

As the ten million person example above shows, the
calculation required by Section 2 has nothing to do with
the State’s alien population, and does not leave a state
better or worse off because its population includes aliens.
The Brooks amici, on the other hand, make the math
“work” only because they begin where they try to
conclude: by eliminating aliens from the apportionment
basis altogether, something the Thirty-Ninth Congress
considered and roundly rejected.
*

*

*

CONCLUSION
For the foregoing reasons, this Court should
affirm the decision below.
Respectfully submitted.
PETER K. STRIS
MICHAEL N. DONOFRIO
Counsel of Record
BRIDGET A. ASAY
ELIZABETH R. BRANNEN
STRIS & MAHER LLP
777 S. Figueroa St., Ste. 3850
Los Angeles, CA 90017
(802) 858-4465 (direct)
(213) 995-6800
michael.donofrio@strismaher.com
Counsel for Amicus Curiae
November 13, 2020

- 32 -

